                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

     Case Number: I08100054                                                                   Page 1 of 1       11
           This investigation was opened pursuant to a proactive review of awards for which no final
           project reports were submitted and for which expenses were incurred after the award expiration
           dates. A university1 which had such awards2was selected as part of this review.

           The University was asked to review the awards selected and to provide information and/or an
           explanation about issues found. The University responded stating that the awards reviewed did
           not have obligations after the award expiration dates but instead had payments processed after the
           award expiration dates for expenses which had been incurred during the award period. They also
           stated that all outstanding final reports have now been submitted to NSF.

           No evidence was found to indicate any wrongdoing or that NSF grant funds were
           misappropriated.

           Accordingly, this matter is closed.




II                                                                                                              'IJ
 NSF 01G Form 2 (1 1/02)
